ORIGINAL
NO.

C3

โข1

J

FILED
OCT 3 0 2020

IN THE

1uppCeEm^epcler|<

SUPREME COURT OF THE UNITED STATES

JEFFREY F. KRATZ - PETITIONER
vs.
NATIONSTAR MORTGAGE LLC - RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO

SUPERIOR COURT OF PENNSYVLANIA

JEFFREY F. KRATZ
3 South Main Street
Richlandtown, PA 18955
jeffreyfkratz@aol.com
215.721.4700

RECEIVED
NOV -h 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS FOR REVIEW

A. Was Jeffrey F. Kratz denied his Constitutional Rights under the 14th Amendment
of the Constitution of the United States which provides that no person shall be
deprived of life, liberty or property without due process of the law when the Court
of Common Pleas of Bucks County Pennsylvania granted to Nationstar Mortgage
LLC a Motion for Summary Judgment against Jeffrey F. Kratz without allowing
Jeffrey F. Kratz to present any evidence?

i

LIST OF PARTIES
1. Jeffrey F. Kratz
774 Quarry Road
Harleysville, PA 19438

2. Nationstar Mortgage LLC

ii

STATEMENT OF RELATED CASES

1. Nationstar Mortgage LLC v. Jeffrey F. Kratz, No. 09-08837, In the Court of
Common Pleas of Bucks County Pennsylvania. Judgment dated October 26,
2017.

2. Nationstar Mortgage LLC v. Jeffrey F. Kratz, No. 412 EDA 2018, In the Superior
Court of Pennsylvania. Judgment Dated September 6, 2018.

3. Nationstar Mortgage LLC v. Jeffrey F. Kratz, No. 634 MAL 2018, In the Supreme
Court of Pennsylvania Middle District. Judgment Dated June 2, 2020.

in

TABLE OF CONTENTS
Page
QUESTIONS FOR REVIEW..........
LIST OF PARTIES........................

i

STATEMENT OF RELATED CASES

ii

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

PETITION

1

JURISDICTION

4

STATEMENT OF THE CASE

4

ARGUMENT

6

CONCLUSION

7

iv

TABLE OF AUTHORITIES
Page(s)
Cases:
Nationstar Mortgage LLC i/. Jeffrey F. Kratz,
No. 09-08837...................................

1

Nationstar Mortgage LLC v. Jeffrey F. Kratz,
No. 412 EDA 2018............................

1

Nationstar Mortgage LLC v. Jeffrey F. Kratz,
No. 634 MAL 2018............................

1

Statutes & Other Authorities:
U.S. Const., amend. V.................

2

U.S. Const., amend. XIV.............

2,4

28 U.S.C. ยง 1257(a)...................

4

v

SUPREME COURT OF THE UNITED STATES

NATIONSTAR MORTGAGE LLC
Appellee
DOCKET NO:
vs.
JEFFREY F. KRATZ
Appellant

PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
1. Nationstar Mortgage LLC v. Jeffrey F. Kratz, No. 09-08837, In the Court of
Common Pleas of Bucks County Pennsylvania. Judgment dated October 26,

2017.

2. Nationstar Mortgage LLC v. Jeffrey F. Kratz, No. 412 EDA 2018, In the Superior
Court of Pennsylvania. Judgment Dated September 6, 2018.

3. Nationstar Mortgage LLC v. Jeffrey F. Kratz, No. 634 MAL 2018, In the Supreme
Court of Pennsylvania Middle District. Judgment Dated June 2, 2020.

PETITION

1.

Your within Petitioner filed a Petition for Allowance of Appeal to the
Supreme Court of Pennsylvania which was denied by the Supreme Court of
Pennsylvania on the 25th day of June, 2020.

1

2.

The Petition for Allowance of Appeal was based upon a violation of the
United States Constitution (5th Amendment to the Constitution as well as a
violation of the 14th Amendment of the Constitution) whereby Petitioner is
challenging his Denial of the Due Process of Law by virtue of the Bucks
County Pennsylvania Court of Common Please granting Summary Judgment
to Nationstar Mortgage LLC on a Mortgage Foreclosure Action, the result of
which would be the taking of Petitioner's property, namely his residence at
3 South Main Street, Richlandtown, PA, without allowing Petitioner due
process of law.

3.

Petitioner, Jeffrey F. Kratz, is requesting a Writ of Certiorari raising the
following issues:
a. The granting of Summary Judgment by the Bucks County Court of
Common Pleas was a violation of the 5th Amendment to the Constitution
and a violation of the 14th Amendment to the Constitution whereby
Petitioner was denied the due process of law by not allowing him to
contest or present any evidence challenging Nationstar Mortgage LLC's
Motion for Summary Judgment and Mortgage Foreclosure Action; and
b. That there was no evidence that Nationstar LLC owned or possessed
"both" the Mortgage and Mortgage Note at the time of the filing of the
Foreclosure Actions as required by law and since Nationstar Mortgage
LLC had been paid in full for the money which it had allegedly loaned to

2

Petitioner as a result of the $25 billion bailout during the Mortgage Crisis
in 2010.
4.

In the within matter, Citimortgage Inc. has already been paid back all the
money which it allegedly loaned to Jeffrey F. Kratz through the infamous
United States Government Bailout of many mortgage companies including
Nationstar Mortgage LLC. The bailout was a result of the epidemic of
defaults by American Homeowners across the country who had been given
mortgages by various banks without the bank's sufficient investigation as
to the homeowner's ability to pay back the loans granted to them by the
Banks. The Massive Bailout funded by American Tax Dollars was to prevent
a catastrophic failure of many banks brought about by the loans which they
improperly made to the consumer. In the matter before the Court, Jeffrey
F. Kratz has attempted to provide evidence to the Lower Court that
Nationstar Mortgage LLC did not own and possess "both" the Mortgage and
Mortgage Note "before" filing the within Foreclosure Action as required by
law and that Nationstar Mortgage LLC had been paid in full for the money
which it had allegedly loaned to Petitioner as a result of the $25 billion
Bailout during the Mortgage Crisis in 2010. However, because the Lower
Court granted Nationstar Mortgage LLC's Motion for Summary Judgment,
Jeffrey F. Kratz was precluded from presenting the evidence which he has
accumulated.

3

JURISDICTION
A. Date of Judgment Sought to be Reviewed:

June 25, 2020

The Supreme Court of the United States by Order dated March 19, 2020 extended
the deadline for filing Appeals for 90 days.

B. Statutory Provision:
The 14th Amendment to the United States Constitution, provides that: All persons
born or naturalized in the United States and subject to the jurisdiction thereof are
citizens of the United States and of the state wherein they reside. No state shall
make or enforce any law which shall abridge the privileges or immunities of citizens
of the United States nor shall any state deprive any person of life, liberty or
property without due process of law nor deny any person within its jurisdiction the
equal protection of the laws.
C. The jurisdiction of this Court is invoked under 28 U.S.C. 1257 (a)

STATEMENT OF THE CASE

On January 19, 2007 Appellant executed a Promissory Note in favor of First
Magnus Financial Corporation (First Magnus) in the amount of $240,000. Appellant
also executed a mortgage which named the Mortgagee as Mortgage Electronics
Registration Systems Inc. (MERS) as nominee for First Magnus.
behind in making payment to Appellee beginning in April of 2009.

4

Appellant fell

On August 17, 2009 Aurora Loan Services LLC (Aurora) filed a Mortgage
Foreclosure against Appellant, averring inter alia that it was the legal owner of the
Mortgage and it was "in the process of formalizing an assignment." Aurora's
Complaint 8/31/09 @ Paragraph 3.

On August 31, 2009 MERS recorded a

Corporate Assignment of the mortgage to Aurora. Aurora then filed an amended
Complaint attaching a copy of the recorded Assignment of Mortgage.

On January 29, 2010 Appellant filed a counseled Answer, New Matter and
Counterclaims. In Appellant's Answer, New Matter and Counterclaims Appellant
averred that because the Corporate Assignment of the Mortgage to Aurora was
not recorded until after Aurora filed the Complaint, Aurora lacked standing to bring
the suit.

In February of 2013 Aurora assigned the Mortgage to Nationstar. Nationstar was
substituted as the Plaintiff.

On March 23, 2017 Nationstar filed a Motion for

Summary Judgement averring that Appellant either admitted or was deemed to
have admitted the essential elements of the Foreclosure Action and thus there
were no material issues of fact in dispute. Appellant filed a Response attaching an
"Expert Report" to identify deficiencies with the Mortgage Assignments." The Trial
Court heard Oral Argument on October 24, 2017 and on October 26, 2017 Judge
C. Theodore Fritsch, Jr. granted Nationstar's Motion for Summary Judgement.

5

Jeffrey F. Kratz filed an Appeal of the Bucks County Decision to the Superior Court
of Pennsylvania. On September 6, 2018 the Superior Court of Pennsylvania denied
the Appeal of Jeffrey F. Kratz by a "non-precedential" decision (see Superior Court
I.O.P. 65.37.) The Supreme Court of Pennsylvania by Order dated June 25, 2020
denied the Petition for Allowance of Appeal by Jeffrey F. Kratz.

ARGUMENT

The issue before this Court is whether Jeffrey F. Kratz has had his property taken
without the opportunity to present any evidence or defenses to the Mortgage
Foreclosure Action filed on behalf of Nationstar Mortgage LLC without due process
of Law and for that reason this matter should be remanded to the Court of
Common Pleas of Bucks County Pennsylvania.

Jeffrey F. Kratz's property is being attempted to be taken by Nationstar Mortgage
LLC without providing him the right of due process. Nationstar Mortgage LLC's
sole evidence (if it can even be considered evidence) consists of a Complaint which
it filed against Jeffrey F. Kratz. There were no depositions, no affidavits, no
testimony, no actual evidence at all to substantiate the bold allegations of
Nationstar Mortgage LLC.

Despite Jeffrey F. Kratz's denial of the claims by

Nationstar Mortgage LLC in his Answer to the Complaint and the raising of New
Matter, the Courts in Pennsylvania have refused to allow Jeffrey F. Kratz the
opportunity to present whatever evidence he may have to challenge the Complaint
6

filed by Nationstar Mortgage LLC. This is clearly a denial of the due process of
law. Nationstar Mortgage LLC is being allowed to take the property belonging to
Jeffrey F. Kratz without giving him the opportunity to challenge Nationstar
Mortgage LLC's allegations.
CONCLUSION
The Petition for Writ of Certiorari should be granted.

RESPECTFULLY SUBMITTED:

/s/ Jeffrey F. Kratz
JEFFREY F. KRATZ
3 South Main Street
Richlandtown, PA 18955
215.721.4700
Email: ieffrevfkratz@aol.com

DATE: October 30, 2020

7

